-   May 06,2005       -         -

Infrastructure and Environment
Defense Advanced Research Projects
Agency's Data Call Submissions and
Internal Control Processes for Base
Realignment and Closure 2005
(D-2005-058)




             Department of Defense
            Office of Inspector General
                                                       -
 Quality            Integrity         Accountability
  Additional Copies

  To request copies of this report, contact Mr. Rudolf Noordhuizen at (703) 604-8959
  (DSN 664-8959) or Mr. Bruce A. Burton at (703) 604-9071 (DSN 664-9071).

  Suggestions for Future Audits

  To suggest ideas for or to request future audits, contact Audit Followup and
  Technical Support at (703) 604-8940 (DSN 664-8940) or fax (703) 604-8932.
  Ideas and requests can also be mailed to:

                ODIG-AUD (visit ATTN: AFTS Audit Suggestions)
                    Department of Defense Inspector General
                      400 Army Navy Drive (Room 801)
                          Arlington, VA 22202-4704




Acronyms

BRAC               Base Realignment and Closure
COBRA              Cost of Base Realignment Actions
DARPA              Defense Advanced Research Projects Agency
H&SA               Headquarters and Support Activities
ICP                Internal Control Plan
JCSG               Joint Cross-Service Group
JPAT 7             Joint Process Action Team Criterion Number 7
DoD OIG            Department of Defense Office of Inspector General
OSD                Office of the Secretary of Defense
                            INSPECTOR GENERAL
                          DEPARTMENT OF DEFENSE
                             400 ARMY NAVY DRIVE
                        ARLINGTON. VIRGINIA 22202-4704




                                                                           May 06,2005




MEMORANDUM FOR DIRECTOR, DEFENSE ADVANCED RESEARCH
                 PROJECTS AGENCY
SUBJECT: Report on Defense Advanced Research Projects Agency's Data Call
         Submissions and Internal Control Processes for Base Realignment and
         Closure 2005 (Report No D-2005-058)

        We are providing this report for information and use. No written response to the
draft report was required, and none was received. Therefore, we are publishing this
report in final form. We performed this audit in response to a request from the Under
Secretary of Defense for Acquisition, Technology, and Logistics.
       We appreciate the courtesies extended to the staff. Questions should be directed
to Mr. Bruce A. Burton at (703) 604-9071 (DSN 664-9071) or Mr. Rudolf Noordhuizen
at (703) 604-8959 (DSN 664-8959). See Appendix B for report distribution. The team
members are listed inside the back cover.
                               By direction of the Deputy Inspector General for Auditing:
                                     \
                                         L-   -

                                            Mary L. Ugone
                                   Assistant Inspector General for
                               Acquisition and ~ichnologyManagement
               Department of Defense Office of Inspector General
Report No. D-2005-058                                                        May 06, 2005
   (Project No. D2004-D000AB-0085.000)

         Defense Advanced Research Projects Agency’s Data Call
               Submissions and Internal Control Processes
                 for Base Realignment and Closure 2005

                                 Executive Summary

Who Should Read This Report and Why? DoD personnel responsible for deciding the
realignment or closure of military installations based on the Base Realignment and
Closure (BRAC) data calls and Defense Advanced Research Projects Agency
management personnel should read this report. The report discusses the adequacy,
completeness, and integrity of the data that the Defense Advanced Research Projects
Agency provided to assist the Secretary of Defense in BRAC 2005 recommendations.

Background. BRAC 2005 is the formal process outlined in Public Law 101-510,
“Defense Base Closure and Realignment Act of 1990,” as amended, under which the
Secretary of Defense may realign or close military installations inside the United States
and its territories. As part of BRAC 2005, the Under Secretary of Defense for
Acquisition, Technology, and Logistics issued, “Transformation Through Base
Realignment and Closure (BRAC 2005) Policy Memorandum One-Policy,
Responsibilities, and Procedures,” April 16, 2003, provided for DoD Office of Inspector
General review of the accuracy of BRAC data and the certification process.

The BRAC 2005 process was mandated for the United States and its territories and was
divided into the following data calls--capacity analysis, supplemental capacity, military
value, Cost of Base Realignment Actions, Joint Process Action Team Criterion
Number 7, and scenario specific. The supplemental capacity, military value, Cost of
Base Realignment Actions, and Joint Process Action Team Criterion Number 7 data calls
are collectively known as the second data call. This report summarizes issues related to
the data calls as of March 3, 2005, for the Defense Advanced Research Projects Agency
BRAC 2005 process.

The Defense Advanced Research Projects Agency was originally established in 1958 to
prevent technological surprises like the launch of Sputnik, which signaled that the
Soviets had beaten the U.S. into space. The Defense Advanced Research Projects
Agency is not tied to a specific operational mission, but it supplies technological options
for the DoD, mines fundamental discoveries, accelerates their development, and lowers
their risks until they can be adopted by the Services.

Results. We evaluated the validity, integrity, and supporting documentation of all BRAC
2005 data that the Defense Advanced Research Projects Agency submitted in response to
the capacity analysis data call, the second data call and the scenario specific data call as
of March 3, 2005. We also evaluated compliance with the Office of the Secretary of
Defense and Defense Advanced Research Projects Agency internal control plans. The
Defense Advanced Research Projects Agency provided BRAC 2005 data that were
generally supported, complete, and accurate, after corrections were made. In the second
data call, responses to Technical JCSG military value questions 3017 through 3020 and
Technical JCSG supplemental capacity questions 4277 through 4279 are still
unsupported; no other source documentation can or will be provided based on the
complexity of obtaining this documentation. In addition, the Defense Advanced
Research Projects Agency used data collection processes that generally complied with
the applicable internal control plans. Changes could have been made to the Joint Process
Action Team Criterion Number 7 data after our visit that we did not verify. We
identified a management control weakness with an unsigned nondisclosure agreement
that DARPA corrected during the audit. The lack of supporting documentation and the
unsigned nondisclosure agreement are considered immaterial and should not affect the
reliability and integrity of the overall DARPA data for the BRAC 2005 analysis.

Management Comments. Management Comments. We provided a draft of this report
on April 18, 2005. No written response to this report was required, and none was
received. Therefore, we are publishing this report in final form.




                                           ii
Table of Contents

Executive Summary                                                            i

Background                                                                  1

Objectives                                                                  3

Finding
     Defense Advanced Research Projects Agency Base Realignment and
        Closure 2005 Data Call Submissions and Internal Control Processes   4

Appendixes
     A. Scope and Methodology                                                8
     B. Report Distribution                                                 12
Background
    Base Realignment and Closure (BRAC) 2005. Public Law 101-510, “Defense
    Base Closure and Realignment Act of 1990,” as amended, establishes the
    procedures under which the Secretary of Defense may realign or close military
    installations inside the U.S. and its territories. The law authorizes the
    establishment of an independent Commission to review the Secretary of Defense
    recommendations for realigning and closing military installations. The Secretary
    of Defense established and chartered the Infrastructure Executive Council and the
    Infrastructure Steering Group as the BRAC 2005 deliberative bodies responsible
    for leadership, direction, and guidance. The Secretary of Defense must submit
    recommendations to the independent Commission by May 16, 2005.

    Joint Cross-Service Groups. A primary objective of BRAC 2005, in addition to
    realigning base structure, is to examine and implement opportunities for greater
    joint activity. The Office of the Secretary of Defense (OSD) established seven
    Joint Cross-Service Groups (JCSGs)--Education and Training, Headquarters and
    Support Activities (H&SA), Industrial, Intelligence, Medical, Supply and Storage,
    and Technical. The JCSGs address issues that affect common business-oriented
    support functions, examine functions in the context of facilities, and develop
    closure and realignment recommendations based on force structure plans of the
    Armed Forces and on selection criteria. To analyze the issues, each JCSG
    developed data call questions to obtain information about the functions that they
    reviewed.
    BRAC Data Calls. The BRAC 2005 data collection process, mandated for the
    United States and its territories, was divided into the following data calls--
    capacity analysis, supplemental capacity, military value, Cost of Base
    Realignment Actions (COBRA), Joint Process Action Team Criterion Number 7
    (JPAT 7), and scenario specific. The supplemental capacity, military value,
    COBRA, and JPAT 7 data calls are collectively known as the second data call.
    The Services, Defense agencies, and Defense-wide Organizations used either
    automated data collection tools or a manual process to collect data call responses.
    Each data call had a specific purpose as follows.

           •   The capacity analysis data call gathered data on infrastructure, current
               workload, surge requirements, and maximum capacity.

           •   The supplemental capacity data call clarified inconsistent data
               gathered with the initial capacity questions.

           •   The military value data call gathered data on mission requirements,
               land and facilities, mobilization and contingency, and cost and
               manpower.

           •   The COBRA data call gathered data to develop costs, savings, and
               payback (formerly known as return on investments) of proposed
               realignment and closure actions.

                                         1
                    •    The JPAT 7 data call gathered data to assess the community’s ability
                         to support additional forces, missions, and personnel associated with
                         individual scenarios. 1

                    •    The scenario specific data call questions gathered data related to
                         specific scenario conditions for realignment or closure.

           Internal Control Plans (ICPs). Before the BRAC data calls were released to the
           Services and Defense agencies, OSD required the Services, Defense agencies, and
           Defense-Wide Organizations to prepare ICPs that incorporated and supplemented
           the OSD ICP. The OSD ICP was issued in the Under Secretary of Defense for
           Acquisition, Technology, and Logistics’ memorandum “Transformation Through
           Base Realignment and Closure (BRAC 2005) Policy Memorandum One-Policy,
           Responsibilities, and Procedures,” April 16, 2003. To comply with that
           requirement, the Defense Advanced Research Projects Agency (DARPA)
           prepared “Base Realignment and Closure (BRAC) 2005 Internal Control Plan for
           the Defense Advanced Research Projects Agency (DARPA)”on December 19,
           2003. For the capacity analysis and second data calls, DARPA used Microsoft
           Word, Excel, and Access.
           DoD Office of the Inspector General (DoD OIG) Responsibility. Pursuant to
           the “Transformation Through Base Realignment and Closure (BRAC 2005)
           Policy Memorandum One-Policy, Responsibilities, and Procedures,” April 16,
           2003, DoD OIG provided advice and recommendations on ICP development and
           implementation, reviewed the accuracy of BRAC data and evaluated the
           certification process. In addition, DoD OIG personnel assisted the JCSGs and
           DoD Components as needed. This report summarizes issues related to the
           DARPA BRAC 2005 process.

           Defense Advanced Research Projects Agency. DARPA was originally
           established in 1958 to prevent technological surprises like the launch of Sputnik,
           which signaled that the Soviets had beaten the U.S. into space. The DARPA is
           not tied to a specific operational mission, but it supplies technological options for
           the DoD, mines fundamental discoveries, accelerates their development, and
           lowers their risks until they can be adopted by the Services.




1
    A scenario is a description of one or more potential closure or realignment actions identified for formal
    analyses by either a JCSG or a Military Department.
                                                        2
Objectives
    The overall objective of the audit was to evaluate the validity, integrity, and
    supporting documentation of data that DARPA collected and submitted for the
    BRAC 2005 process. In addition, we evaluated whether DARPA complied with
    the OSD and DARPA ICPs. This report is one in a series on data call
    submissions and internal control processes for BRAC 2005. See Appendix A for
    a discussion of the scope and methodology and prior coverage related to the audit
    objectives.




                                        3
           Defense Advanced Research Projects
           Agency’s Base Realignment and Closure
           2005 Data Call Submissions and Internal
           Control Processes
           DARPA reported BRAC 2005 data that were generally supported,
           complete, and accurate after corrections were made. All responses in the
           capacity analysis data call were corrected and are now supported. In the
           second data call, responses Technical JCSG military value questions 3017
           through 3020 and Technical JCSG supplemental capacity questions 4277
           through 4279 are still unsupported; no other source documentation can or
           will be provided based on the complexity of obtaining this documentation.
           DARPA provided reasonable responses to the scenario specific data call
           questions and adequate supporting documentation. The site data
           collection processes for the capacity data call, second data call, and
           scenario specific data call generally complied with applicable ICPs. The
           DARPA ICP properly incorporated and supplemented the OSD ICP. We
           identified a management control weakness with an unsigned nondisclosure
           agreement that DARPA corrected during the audit. The lack of supporting
           documentation and the unsigned nondisclosure agreement are considered
           immaterial and should not affect the reliability and integrity of the overall
           DARPA data for the BRAC 2005 analysis.


Defense Advanced Research Projects Agency BRAC 2005 Data
  Call Submissions
    The BRAC 2005 data that DARPA reported were generally supported, complete,
    and accurate after corrections were made. We evaluated the validity, integrity,
    and supporting documentation. Specifically, we compared responses to
    supporting documentation and reviewed “Not Applicable” (N/A) question
    responses to determine whether the responses were reasonable.

    Capacity Analysis Data Call. DARPA provided accurate, reasonable question
    responses and adequate support for the capacity analysis data call, after
    corrections were made. For the capacity analysis data call, DARPA received
    753 questions. We evaluated the 32 responses and supporting documentation for
    DARPA. In addition, we reviewed the reasonableness for 721 “Not Applicable”
    responses, and determined those responses to be reasonable. We also identified
    responses with inadequate support and inaccurate information and, as a result,
    DARPA revised its responses and provided the necessary supporting
    documentation. We verified and concurred with the changes. See Appendix A for
    a list of questions reviewed. We did not verify that the changes were made to the
    OSD Database.

                                         4
           Second Data Call. DARPA provided accurate, reasonable responses and
           adequate supporting documentation for the second data call after corrections were
           made. DARPA received 175 questions--11 H&SA JCSG military value
           questions, 20 JPAT 7 questions, 8 COBRA questions, 12 H&SA JCSG
           supplemental capacity questions, 28 Technical JCSG military value questions,
           10 Technical supplemental capacity questions, 55 Education and Training JCSG
           supplemental capacity questions, 26 Medical JCSG military value questions, and
           5 Medical JCSG supplemental capacity questions.

           We evaluated the responses and supporting documentation. We also reviewed the
           reasonableness for “Not Applicable” responses and determined those responses to
           be reasonable. We identified responses with inadequate support and inaccurate
           information and, as a result, DARPA revised its responses and provided the
           necessary supporting documentation. We verified and concurred with the
           changes. See Appendix A for a list of questions reviewed. We did not verify that
           the changes were made to the OSD Database. However, responses to Technical
           JCSG military value questions 3017 through 3020 and Technical JCSG
           supplemental capacity questions 4277 through 4279 are still unsupported; no
           other source documentation can or will be provided based on the complexity of
           obtaining this documentation.
           Fort Myer provided DARPA responses for JPAT 7 question numbers 1400, 1405,
           1406, 1407, 1409, and 1417. We did not audit the accuracy or the supporting
           documentation for Fort Myer’s responses. BRAC instructions stated that sites
           could obtain and use responses from military bases near the sites. Changes could
           have been made to the JPAT 7 data after our site visits that were not verified.
           Also, we did not determine whether the support was reasonable or accurate for
           H&SA JCSG question numbers 1907 2 and 1908 3 because we were unable to
           validate the steps taken to generate the responses.

           Scenario Specific Data Call. DARPA provided reasonable responses to the
           scenario specific data call questions and adequate supporting documentation. We
           evaluated seven Technical JCSG scenarios and one Medical JCSG scenario for
           DARPA, which provided reasonable explanations of the methodologies used to
           respond to the scenarios, and the responses were adequately supported with
           documentation. All DARPA responses to the scenario specific data call were
           certified as accurate and complete to the best of the certifier’s knowledge and
           belief.




2
    The question asks for the number of meetings between an organization’s senior officials, including flag
    and general officers, and senior officials from another organization located in the Washington, D.C., area.
3
    The question asks for the number of meetings between an organizations senior officials, including flag
    and general officers, and Members of Congress or their staffs.
                                                        5
Internal Control Processes
     The data collection processes that DARPA used for the capacity data call, second
     data call, and scenario specific data call generally complied with applicable ICPs.
     DARPA properly incorporated and supplemented the OSD ICP into the DARPA
     ICP.

     We evaluated whether DARPA complied with the ICPs for the capacity analysis
     data call, the second data call, and the scenario specific data call. The evaluation
     included reviewing whether the DARPA ICP incorporated the OSD ICP and
     whether DARPA completed nondisclosure agreements, and marked and
     safeguarded BRAC data.

     Completeness of ICPs. The DARPA BRAC 2005 ICP describes responsibilities
     and procedures for BRAC 2005 to ensure accurate and complete data from a
     properly documented and auditable process. The ICPs established DARPA
     BRAC 2005 responsibilities and control mechanisms to safeguard DARPA
     BRAC information. Specifically, the DARPA ICP included direction on
     completing nondisclosure agreements and collecting, marking, safeguarding, and
     maintaining BRAC data.
     Compliance with ICPs. DARPA was generally compliant with the ICP
     procedures. The data collection processes for the capacity analysis, second, and
     scenario specific data calls complied with applicable ICPs. Specifically, we
     reviewed BRAC documents to determine whether data were appropriately marked
     with header or footer information, secured in locked containers, and that
     personnel had signed nondisclosure agreements. We identified a control
     weakness with nondisclosure agreements in that the deputy director did not sign a
     nondisclosure agreement. The DARPA management corrected the control
     weakness during the audit; therefore, we consider the identified weakness to be
     immaterial, and it will not affect the integrity of the BRAC data submitted to the
     OSD BRAC office. DARPA generally complied with applicable ICPs.


Conclusion
     DARPA reported BRAC data that were generally supported, complete, and
     accurate, after corrections were made, and the data collection processes generally
     complied with the ICPs. We discussed the results of the data call submissions and
     ICP review with DARPA management. DARPA management concurred with the
     findings and corrected or more fully supported the questionable responses. In the
     capacity analysis data call, we identified responses with inadequate supporting
     documentation and inaccurate information and, as a result, DARPA revised
     responses and provided the necessary supporting documentation. In the second
     data call, we identified responses with inadequate supporting documentation and
     inaccurate information and, as a result, DARPA revised responses and provided
     the necessary supporting documentation. We verified and concurred with the
                                           6
changes. Responses to second data call questions 3017 through 3020 and 4277
through 4279 are still unsupported, and no other source documentation can or will
be provided. However, DARPA provided reasonable explanations of the
methodologies used to respond to the scenarios, and their methodologies were
adequately supported with documentation. We determined that the identified
control weakness for nondisclosure agreements was corrected and therefore
immaterial. Despite the unsupported responses and immaterial control weakness,
DARPA generally complied with BRAC 2005 requirements and we consider the
DARPA data to be generally reasonable and supported and it should not affect the
reliability and integrity of the DARPA data in the BRAC 2005 analysis.




                                    7
      Appendix A. Scope and Methodology
      We evaluated the validity, integrity, and supporting documentation of DARPA
      BRAC 2005 data. The evaluation included comparing question responses to
      supporting documentation and reviewing Not Applicable (N/A) responses to
      determine whether responses were reasonable. Questions had either an answer or
      an N/A response; an N/A response was for questions that did not apply to a site.
      We determined that the DARPA ICP incorporated the requirements of the OSD
      ICP.

      We evaluated site data collection procedures to determine whether the procedures
      were in compliance with DARPA ICP procedures for collecting, storing,
      accessing, and controlling BRAC information and whether BRAC information
      was certified for accuracy and completeness. In addition, we interviewed the
      personnel responsible for preparing and certifying the responses to the data calls.
      We did not verify that the DARPA responses were in the OSD Database for the
      capacity and second data calls.

      Capacity Analysis Data Call. DARPA received 753 capacity analysis data call
      questions, reviewed the data call questions, and determined which data call
      questions were applicable. We evaluated the data call questions at DARPA, and
      issued one site memorandum to summarize the results. We reviewed the DARPA
      selection process for the reasonableness of the “Not Applicable” questions and
      found the process to be reasonable. Specifically, we reviewed the following
      responses and supporting documentation.

             Table 1. Capacity Analysis Data Call Questions Reviewed

                                                     Question Number
      Defense Agency Site                  Answered                Not Applicable
Defense Advanced Research          11, 23, 24, 27, 29, 210,   1-10, 12-22, 25, 26, 28,
Projects Agency Headquarters,      214, 219, 327, 446, 455- 30-209, 211-213, 215-
Arlington, Virginia                457, 462, 466, 582, 690, 218, 220-326, 328-445,
                                   691, and 734-747           447-454, 458-461, 463-
                                                              465, 467-581, 583-689,
                                                              692-733, and 748-753

      Second Data Call. DARPA received 175 questions from the JCSGs.
      Specifically, DARPA received 11 H&SA JCSG military value questions (1905,
      1907 through 1911, 1913 through 1917) and 12 H&SA JCSG supplemental
      capacity questions (4072 through 4074, 4079, 4080, 4081, 4096, 4099 through
      4103), 55 Education and Training JCSG supplemental capacity questions (4000,
      4002, through 4053, 4061, 4062), 28 Technical JCSG military value questions
      (3000 through 3027), 10 Technical JCSG supplemental capacity questions (4277
      through 4286), 26 Medical JCSG military value questions (2600, 2617, 2629,
                                           8
           2634 through 2656), 5 Medical JCSG supplemental capacity questions (4242
           through 4246), 8 COBRA questions (1500 through 1507), and 20 JPAT 7
           questions (1400 through 1417 4 , 1420, 1421).
           We reviewed the DARPA selection process for the reasonableness of the “Not
           Applicable” questions and found the process to be reasonable. DARPA complied
           with the requirement for all stand-alone facilities and host installations to answer
           JPAT 7 and COBRA data call questions, which includes leased facilities.
           DARPA is a leased facility. Fort Myer provided DARPA responses for JPAT 7
           question numbers 1400, 1405, 1406, 1407, 1409, and 1417. We did not audit the
           accuracy or the supporting documentation for Fort Myer’s responses. BRAC
           instructions stated that sites could obtain and use responses from military bases
           near the sites. Also, we did not determine whether the support was reasonable or
           accurate for H&SA JCSG question numbers 1907 5 and 1908 6 because we were
           unable to validate the steps taken to generate the responses. Technical JCSG
           military value questions 3017 through 3020 and Technical JCSG supplemental
           capacity questions 4277 through 4279 are still unsupported; no other source
           documentation can or will be provided based on the complexity of obtaining this
           documentation. Changes could have been made to the JPAT 7 data after our visit
           that we did not verify.
           In addition to reviewing the second data call responses; we followed up on
           outstanding issues from the capacity analysis data call involving question
           numbers 690, 745, and 747.
           We issued a site memorandum to summarize the results of the site visit.
           Specifically, we reviewed the following responses and supporting documentation
           at DARPA.
                          Table 2. Second Data Call Questions Reviewed

                                                              Question Number
      Defense Agency Site                            Answered              Not Applicable
Defense Advanced Research                     1400-1417, 1420, 1421,   1500, 1502-1504, 1506,
Projects Agency Headquarters,                 1501, 1505, 1905, 1907- 1507, 1913, 1914, 2600,
Arlington, Virginia                           1911, 1915-1917, 3000- 2617, 2629, 2634-2656,
                                              3003, 3005, 3006, 3008, 3004, 3007, 3010-3012,
                                              3009, 3013, 3016-3021,   3014, 3015, 3022, 3023,
                                              3024, 3026, 4081, 4096, 3025, 3027, 4000, 4002-
                                              4099-4103, 4277, 4278,   4053, 4061, 4062, 4072-
                                              and 4279                 4074, 4079, 4080, 4242-
                                                                       4246, and 4280-4286

4
    JPAT 7 replaced JPAT 7 question numbers 1418 and 1419 with JPAT 7 question numbers 1420 and
    1421.
5
    The question asks for the number of meetings between an organization’s senior officials, including flag
    and general officers, and senior officials from another organization located in the Washington, D.C., area.
6
    The question asks for the number of meetings between an organizations senior officials, including flag
    and general officers, and Members of Congress or their staffs.
                                                        9
    Scenario Specific Data Call. As of March 3, 2005, the Technical JCSG and
    Medical JCSG had assigned eight scenario specific data calls to DARPA. The
    Technical JCSG assigned scenario numbers 10, 32, 38, 39, 40, 41 and 46, and the
    Medical JCSG assigned scenario number 28. We evaluated the scenario
    responses from DARPA Headquarters for reasonableness and adequate
    supporting documentation.

    We performed this audit from March 2004 through March 2005 in accordance
    with generally accepted government auditing standards.

    Use of Computer-Processed Data. We did not test the accuracy of the
    computer-processed data used to support an answer to a data call question
    because of time constraints. Potential inaccuracies in the data could affect the
    results. However, the BRAC data were certified as accurate and complete to the
    best of the certifier’s knowledge and belief. We did not review the data gathering
    tools used.
    Government Accountability Office High-Risk Areas. The Government
    Accountability Office has identified several high-risk areas in DoD. This report
    provides coverage of the Federal Real Property and DoD Support Infrastructure
    Management high-risk areas.


Management Control Program Review
    We did not review the DARPA management control program because its
    provisions did not apply to the one-time data collection process. However, we
    evaluated the DARPA management controls for preparing, submitting,
    documenting, and safeguarding information associated with the BRAC 2005 data
    calls, as directed by the applicable ICPs. Specifically, we reviewed the
    procedures that DARPA used to develop, submit, and document data call
    responses. In addition, we reviewed the controls implemented to certify and
    maintain BRAC documentation in accordance with applicable ICPs.
    Management controls were adequate as they applied to the audit objective (see the
    finding discussion for further details). The data collection processes that DARPA
    used for the capacity data call, the second data call, and the scenario specific data
    call complied with applicable ICPs. DARPA properly incorporated the OSD ICP
    into the DARPA ICP, which included direction on completing nondisclosure
    agreements and collecting, marking, safeguarding, and maintaining BRAC data.
    We identified a control weakness with the nondisclosure agreements in that the
    deputy director did not sign a nondisclosure agreement. The DARPA
    management corrected the control weakness during the audit; therefore, we
    consider the identified weakness to be immaterial, and it will not affect the
    reliability and integrity of the BRAC data submitted to the Office of the Secretary
    of Defense BRAC Office.



                                         10
Prior Coverage
    During the last 5 years, the DoD OIG has issued two site memorandums
    discussing the DARPA BRAC 2005 data call submissions and internal control
    processes.

DoD IG
    Site Memorandums

    DoD OIG Memorandum, “Audit on the Second Data Call Submission for Defense
    Advanced Research Projects Agency, Arlington, Virginia for Base Realignment
    and Closure 2005 (Project No. D2004AB-0085.002),” March 01, 2005
    DoD OIG Memorandum, “Audit on the Capacity Analysis Data Call Submission
    From Defense Advanced Research Projects Agency for Base Realignment and
    Closure 2005 (Project No. D2004AB-0085.001),” April 15, 2004




                                     11
Appendix B. Report Distribution

Office of the Secretary of Defense
     Director, Base Realignment and Closure (Installations and Environment)


Defense Agency
     Director, Defense Advanced Research Projects Agency


Non-Defense Federal Organization
     Government Accountability Office




                                        12
Team Members
The Department of Defense Office of the Deputy Inspector General for Auditing,
Acquisition and Technology Management prepared this report. Personnel of the
Department of Defense Office of Inspector General who contributed to the report
are listed below.

Bruce A. Burton
Rudolf Noordhuzien
Lisa E. Novis
Chrispian M. Brake
Paul R. Glenn
Kiana E. Silver
Jacqueline M. Pugh
